           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED BY
   THE CONNECTICUT DISABILITY
     DETERMINATION SERVICES

     October 2012   A-01-12-12104




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      October 18, 2012                                                         Refer To:

To:        Michael F. Bertrand
           Regional Commissioner
            Boston

From:      Inspector General

Subject:   Administrative Costs Claimed by the Connecticut Disability Determination Services
           (A-01-12-12104)


           For our audit of Federal Fiscal Year (FY) 2009 and 2010 administrative costs claimed
           by the Connecticut Disability Determination Services (CT-DDS), our objectives were to
           •     evaluate CT-DDS’ internal controls over the accounting and reporting of
                 administrative costs;
           •     determine whether costs claimed by CT-DDS were allowable and funds were
                 properly drawn; and
           •     assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Social Security Administration’s (SSA)
           Disability Insurance and Supplemental Security Income programs in accordance with
           Federal law and regulations. 1 Each DDS is responsible for determining claimants’
           disabilities and ensuring adequate evidence is available to support its determinations.

           To make proper disability determinations, SSA authorizes each DDS to purchase
           medical examinations, X rays, and laboratory tests on a consultative basis to
           supplement evidence obtained from the claimants’ physicians or other treating sources.
           SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
           approved funding authorization, based on a State Agency Report of Obligations for SSA
           Disability Programs (Form SSA-4513). 2 (See Appendix B for additional background,
           scope, and methodology.)


           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c. See also, 20 C.F.R. §§ 404.1601,
           et. seq., and 416.1001 et. seq.
           2
               20 C.F.R. §§ 404.1626 and 416.1026.
Page 2 - Michael F. Bertrand


RESULTS OF REVIEW
We determined that costs claimed on Forms SSA-4513 for the period October 1, 2008
through September 30, 2010 were allowable and properly allocated and the system of
internal controls over accounting and reporting administrative costs was effective. In
addition, cumulative drawdowns did not exceed cumulative disbursements during our
audit period. (See Appendix C for costs reported on Forms SSA-4513.) Finally, our
limited review of CT-DDS’ controls over its physical security and personally identifiable
information showed that controls were in place.

CONCLUSION
Overall, CT-DDS had effective internal controls over the accounting and reporting of
administrative costs for FYs 2009 and 2010. Also, CT DDS’ controls for general
security and personally identifiable information were satisfactory.

AGENCY COMMENTS
See Appendices D and E for SSA’s comments and the DDS parent agency’s
comments.




                                      Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Reports of Obligations for SSA Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – Disability Determination Services Parent Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgment
                                                                Appendix A

Acronyms
Act             Social Security Act
C.F.R.          Code of Federal Regulations
CT-DDS          Connecticut Disability Determination Services
DDS             Disability Determination Services
DI              Disability Insurance
FY              Fiscal Year
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
OMB             Office of Management and Budget
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code
                                                                                Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. 1 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled. 2

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico, and the District of Columbia.
Such determinations are required to be performed in accordance with Federal law and
underlying regulation. 3 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. To assist in making proper disability determinations, SSA
authorizes each DDS to purchase medical examinations, X rays, and laboratory tests on
a consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. 4 The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 5 and intergovernmental agreements entered into by the Department of the
Treasury and States or other responsible jurisdiction, under the Cash Management
Improvement Act of 1990. 6 An advance or reimbursement for costs under the program
must comply with Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments. At the end of each quarter


1
    Social Security Act § 223(a)(1); 42 U.S.C. § 423(a)(1).
2
    Social Security Act §§ 1602 and 1611; 42 U.S.C. §§ 1381a and 1382.
3
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; see also, 20 C.F.R. §§ 404.1601
et. seq., and 416.1001 et. seq.
4
    20 C.F.R. §§ 404.1626 and 416.1026.
5
    31 C.F.R. § 205.1 et. seq.
6
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (1990).


                                                      B-1
of the Fiscal Year (FY), each DDS submits a State Agency Report of Obligations for
SSA Disability Programs (Form SSA-4513) to account for program disbursements and
unliquidated obligations.

SCOPE

To accomplish our objectives, we reviewed the administrative costs Connecticut
Disability Determination Services (CT-DDS) reported on its Forms SSA-4513 for
FYs 2009 and 2010. For the periods reviewed, we obtained evidence to evaluate
recorded financial transactions and determine whether they were allowable under OMB
Circular A-87 and appropriate, as defined by SSA’s Program Operations Manual
System (POMS).

We also:
•   Reviewed applicable Federal laws, regulations, and SSA’s POMS and other
    instructions pertaining to administrative costs incurred by CT-DDS and the draw
    down of SSA funds.
•   Contacted staff at CT-DDS and SSA’s Boston Regional Office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
•   Verified the reconciliation of official State accounting records to the administrative
    costs reported by CT-DDS on Forms SSA-4513 for FYs 2009 and 2010.
•   Examined the administrative expenditures (Personnel, Medical, and All Other
    Non-personnel costs) incurred and claimed by CT-DDS for FYs 2009 and 2010 on
    Forms SSA-4513.
•   Examined the indirect costs claimed by CT-DDS for FYs 2009 and 2010 and the
    corresponding Indirect Cost Allocation Plans.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513.
•   Reviewed the State of Connecticut Audit reports issued in 2009 and 2010.
•   Conducted limited general control testing—which encompassed reviewing the
    physical access security in CT-DDS.
•   Reviewed policies and procedures related to personally identifiable information to
    determine whether CT-DDS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the CT-DDS in Hartford, Connecticut, and the Office of Audit
in Boston, Massachusetts, from April through August 2012. We conducted our audit in


                                             B-2
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

METHODOLOGY

Our sampling methodology encompassed the three general areas of costs as reported
on Forms SSA-4513: (1) Personnel, (2) Medical, (3) All Other Non-personnel costs.
We obtained computerized data from CT-DDS for FYs 2009 and 2010 for use in
statistical sampling.

Personnel Costs

We sampled 117 employee salary items from 1 randomly selected pay period in
FY 2010. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the CT-DDS correctly paid
employees and adequately documented these payments.

We also sampled 43 medical consultant cost items from 1 randomly selected pay period
for FY 2010. We determined whether sampled costs were paid properly and ensured
the selected medical consultants were licensed.

Medical Costs

We sampled 100 medical evidence and consultative examination records (50 items from
each FY) using a proportional random sample. We determined whether sampled costs
were properly reimbursed.

All Other Non-Personnel Costs

We stratified All Other Non-personnel costs into 10 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing Maintenance, (4) New Electronic
Data Processing Equipment/Upgrades, (5) Equipment Purchases, (6) Equipment
Rental, (7) Communications, (8) Applicant Travel, (9) DDS Travel, and (10) Supplies.
We selected a stratified random sample of 50 items from each FY based on the
percentage of costs in each category (excluding the rent portion of Occupancy) to total
costs. We also performed a 100-percent review of the rent portion of Occupancy
expenditures.




                                           B-3
                                                           Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for SSA Disability Programs
           Connecticut Disability Determination Services

                FISCAL YEARS (FY) 2009 and 2010 COMBINED
    REPORTING                         UNLIQUIDATED         TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS      OBLIGATIONS
Personnel             $26,420,013           $0         $26,420,013
Medical                $6,671,388           $0          $6,671,388
Indirect               $4,823,890           $0          $4,823,890
All Other              $2,397,968           $0          $2,397,968
TOTAL                 $40,313,259           $0         $40,313,259

                                FY 2009
    REPORTING                         UNLIQUIDATED         TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS      OBLIGATIONS
Personnel             $12,540,602           $0         $12,540,602
Medical                $3,058,421           $0          $3,058,421
Indirect               $2,466,545           $0          $2,466,545
All Other              $1,175,194           $0          $1,175,194
TOTAL                 $19,240,762           $0         $19,240,762
                                FY 2010
    REPORTING                         UNLIQUIDATED         TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS      OBLIGATIONS
Personnel             $13,879,411           $0         $13,879,411
Medical                $3,612,967           $0          $3,612,967
Indirect               $2,357,345           $0          $2,357,345
All Other              $1,222,774           $0          $1,222,774
TOTAL                 $21,072,497           $0         $21,072,497
                                                                                        Appendix D

           Agency Comments



                                          SOCIAL SECURITY
MEMORANDUM
Date:      October 1, 2012                                                           Refer To:
                                                                                     S2D1G5/33525/ORC-
                                                                                     2012-S1J-3
To:        Patrick P. O’Carroll, Jr.
           Inspector General
From:      Michael F. Bertrand
           Regional Commissioner
           Boston
Subject:   Administrative Costs Claimed by the Connecticut Disability Determination Services
           (A-01-12-12104)

           Thank you for the opportunity to review and comment on the draft audit report of administrative
           costs claimed by the Connecticut Disability Determination Services (CT DDS) for fiscal years
           2009 and 2010.
           The draft report determined that costs claimed by the CT DDS on Forms SSA-4513 for the
           period October 1, 2008 through September 30, 2010 were allowable and properly allocated, and
           the system of internal controls over accounting and reporting administrative costs was effective.
           In addition, cumulative drawdowns did not exceed cumulative disbursements during our audit
           period. Also, the audit’s limited review of CT-DDS’ controls over its physical security and
           personally identifiable information showed that controls were in place.
           The audit concluded that, overall, CT-DDS had effective internal controls over the accounting
           and reporting of administrative costs for FYs 2009 and 2010 and that controls for general
           security and personally identifiable information were satisfactory.
           There were no findings requiring corrective action.
           We are pleased with the absence of findings and have no comments to add to the draft report.
           We look forward to receipt of the final report and closure of this audit. Please call me if you
           wish to discuss the report or you staff may contact Lynne Curtis, Connecticut Disability Program
           Administrator, Boston Center for Disability, at 617-565-2390.
                                                                 /s/
                                                         Michael F. Bertrand
                                                                              Appendix E

Disability Determination Services Parent
Agency Comments

October 01, 2012

Subject: Draft Report: Administrative Costs Claimed by the Connecticut DDS

David and Frank,

Thank you for the opportunity to review and comment on the draft report “Administrative Costs
Claimed by the Connecticut Disability Determination Services”
(A-01-12-12104). We are pleased with the assessment that the DDS’ internal controls over
administrative cost accounting and reporting are effective, and that controls for general security
and personally identifiable information are satisfactory.

In addition, we wish to thank you both for your professionalism and cooperation in conducting
such a comprehensive review during a time of transition for our agency. This required some
extra effort on your part, working closely with staff from the CT DDS, as well as staff from the
previous parent agency, the Department of Social Services, and the current parent agency, the
Department of Rehabilitation Services. We appreciate your patience and the open lines of
communication during the review.

Thank you. It was a pleasure to work with you.

Amy

Amy Porter, Commissioner
Department of Rehabilitation Services
25 Sigourney Street
Hartford, CT 06106
(860) 424-4864 phone
(860) 424-4850 fax
                                                                          Appendix F

OIG Contacts and Staff Acknowledgment
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgment

In addition to those named above:

   Frank Salamone, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-12-12104.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
